                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 1-09080045                                                                         Page 1 ofl



         This investigation was initiated fro~ an allegation th~t a PIt spent funds from an NSF award2 on
         activities not included in the original proposal and contrary to instructions received from NSF.
                                              I                                                    !


         Our investigation, which included a review of financial records and an interview ofthe PI,
         revealed that following the completion of the activities set forth in the original proposal, the PI ,
         requested pennission from NSF to spend remaining funds on other activities, but was directed to \
         provide a proposed budget for such expenditures to NSF for consideration. Rather than provide
         the proposed budget as directed, the PI obtained a grantee approved no-cost extension and
         expended the remaining award funds without NSF permission. NSF did not learn of these
         expenditures until the PI filed an annual report, more than a year after the report was due to NSF.
          Our investigation also revealed that there were charges made to the award that were unallowable
         or not supported by sufficient docUmentation.

         The awardee institution) re~ed$19,736 of unallowable and unsupported charges to NSF, in
         addition to making changes to their no-cost extension policy. The institution also removed the PI
         from his position as an academic center director. We wrote to the PI, admonishing him to adhere
         with applicable grant conditions and to promptly reply to requests of Program Officers.

         In light of the above, no further iI)vestigative effort is necessary in this matter.

         Accordingly, this case is closed.




         2
         3




NSF OIG Form 2 (1 V02)
